No. 19-777
IN THE

ELECTRONIC PRIVACY INFORMATION CENTER,
v.

Petitioner,

UNITED STATES DEPARTMENT OF COMMERCE, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari by the Electronic Privacy Information Center complies with the
word limitations set forth by the Rules of the Court and contains 2,920 words, not
counting the portions excluded by Supreme Court Rule 33.1(d).
I declare that under penalty of perjury that the foregoing is true and correct.
Executed on April 7, 2020.
/s/ Marc Rotenberg
Marc Rotenberg
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave N.W.
Washington, DC 20036
(202) 483-1140
rotenberg@epic.org

